<html>
<title> - LEGISLATIVE FIXES FOR LINGERING PROBLEMS THAT HINDER KATRINA RECOVERY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  LEGISLATIVE FIXES FOR LINGERING PROBLEMS THAT HINDER KATRINA RECOVERY

=======================================================================

                                (110-43)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 10, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                    U.S. GOVERNMENT PRINTING OFFICE
35-925                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY, Pennsylvania  Virginia
TIMOTHY J. WALZ, Minnesota           CHARLES W. DENT, Pennsylvania
STEVE COHEN, Tennessee               JOHN R. `RANDY' KUHL, Jr., New 
JAMES L. OBERSTAR, Minnesota         York
  (Ex Officio)                       JOHN L. MICA, Florida
                                       (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Baker, Hon. Richard, a Representative in Congress from the State 
  of Louisiana...................................................    15
Boustany, Jr., Hon. Charles, a Representative in Congress from 
  the State of Louisiana.........................................    17
Brown, Hon. Corrine, a Representative in Congress from the State 
  of Florida.....................................................    27
Jefferson, Hon. William, a Representative in Congress from the 
  State of Louisiana.............................................    19
Jindal, Hon. Bobby, a Representative in Congress from the State 
  of Louisiana...................................................    22
Melancon, Hon. Charlie, a Representative in Congress from the 
  State of Louisiana.............................................    24
Pickering, Hon. Charles, a Representative in Congress from the 
  State of Mississippi...........................................     6
Taylor, Hon. Gene, a Representative in Congress from the State of 
  Mississippi....................................................     3

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    39
Baker, Hon. Richard H., of Louisiana.............................    40
Boustany, Jr., Hon. Charles, of Louisiana........................    48
Jefferson, Hon. William, of Louisiana............................    54
Melancon, Hon. Charlie, of Louisiana.............................    58
[GRAPHIC] [TIFF OMITTED] T5925.001

[GRAPHIC] [TIFF OMITTED] T5925.002

[GRAPHIC] [TIFF OMITTED] T5925.003



 LEGISLATIVE FIXES FOR LINGERING PROBLEMS THAT HINDER KATRINA RECOVERY

                              ----------                              


                         Thursday, May 10, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [chairman of the subcommittee] Presiding.
    Ms. Norton. I want to welcome members who will be 
testifying at today's hearing, which will address issues still 
outstanding 20 months after Hurricane Katrina made its 
devastating landfall. We will hear from members of the gulf 
coast region, who describe issues that still prevent full 
recovery from this disaster in their communities. This hearing 
continues an aggressive oversight and legislative agenda on the 
subcommittee of FEMA matters.
    This is our subcommittee's fifth hearing on FEMA issues 
this year. Perhaps most significantly, we moved the most 
important legislation requested by gulf State officials. 
Working with the Democratic leadership, we quickly passed out 
of committee H.R. 1144, the Hurricanes Katrina and Rita Federal 
Match Relief Act of 2007 to provide urgently needed relief from 
several matching requirements for communities devastated by 
hurricanes Katrina Rita and Wilma.
    An amended form of legislation is included in the emergency 
supplemental appropriation that passed the House and Senate and 
was sent to the President. We also collaborated with the 
Committee on Financial Services on H.R. 1227, the Gulf Coast 
Hurricane Housing Recovery Act of 2007 to ensure Louisiana's 
ability to use its hazard mitigation program funds for its road 
home program.
    These protections were included in the legislation that 
passed the House in March. Hurricane Katrina made landfall on 
August 29, 2005 and had a massive physical impact affecting 
90,000 square miles--an area the size of Great Britain. More 
than 80 percent of the City of New Orleans flooded an area 
seven times the size of Manhattan. Under the authority granted 
the President in the Stafford Disaster Relief and Emergency 
Assistance Act, the President declared a major disaster in the 
States of Mississippi and Louisiana on that date.
    The Stafford Act authorizes the disaster assistance that 
FEMA provides after a major disaster. While the authority of 
the Stafford Act is very broad and flexible, it does not 
anticipate every circumstance that can arise in a disaster, 
particularly a catastrophic disaster of the unprecedented size 
and cost of Hurricane Katrina.
    Historically when catastrophic or unusual disasters struck, 
FEMA and Congress worked cooperatively to identify areas where 
FEMA needed special authority or direction. However, when 
Katrina struck, FEMA was not a flexible or independent 
government agency, but an organization within the Department of 
Homeland Security, a larger bureaucracy, without direct access 
to the President or Congress.
    I believe that this structure was a factor in preventing 
FEMA from engaging with Congress as they have in the past. The 
problem was further magnified by the unprecedented scope and 
magnitude of Katrina. As a result, Congress must act to fill 
holes that are withholding recovery on the gulf coast.
    Today, I expect we will hear some matters that are normally 
not covered by the Stafford Act and probably for good reason, 
as the Stafford Act is only supposed to supplemental or replace 
what State and local governments do after a disaster. But the 
devastation of Katrina requires that we look at these issues 
differently and consider what may be needed to provide some 
further assistance for recovery from Katrina and Rita where 
appropriate, even if not warranted in other disasters.
    We very much look forward to hearing from the members this 
afternoon and I am pleased to ask Ranking Member Mr. Graves if 
he has any remarks at this time.
    Mr. Graves. Thank you, Madam Chairwoman. Two months after 
Katrina made landfall in the gulf coast, this subcommittee 
recognized that the recovery in the region was already in a 
critical stage, and we held similar hearings at that time to 
discuss legislative proposals to spur on a successful recovery.
    Today we are meeting to hear legislative proposals to 
address lessons learned from the gulf coast recovery and other 
disasters that have happened since the fall of 2005. I look 
forward to the numerous proposals on issues ranging from 
everything from accountability to changes in the Stafford Act 
amendments and ensuring that the success and future recoveries 
at least goes a lot smoother.
    After a massive disaster like Hurricane Katrina, the sooner 
the community recovers, the less it is going to cost the 
taxpayers. In the long run, it is important to get businesses 
up and running and people back in their communities so the 
community can be once again self sufficient and productive. We 
need to ensure that communities have the tools for a quick and 
efficient recovery. And we should also be mindful that 
accountability is paramount to successful recovery of a region.
    In this effort, every dollar we lose to waste fraud and 
abuse is a dollar that is not spent helping the people of an 
impacted region.
    Additionally, there may be some projects where people have 
moved on and sought relief outside the regular process because 
the system wasn't working for them and they couldn't wait any 
longer for help. Although no longer pending, these cases also 
serve as examples where changes might prevent future problems 
that slow down the recovery process.
    Madam Chairwoman, I look forward to hearing the proposals 
from our colleagues today, and I thank you for this hearing.
    Ms. Norton. Thank you very much, Mr. Graves. We now will 
hear from the Mississippi panel. I would like to ask first, Mr. 
Taylor, who is a member of the committee, to testify and then 
Mr. Pickering, both of Mississippi.
    Mr. Taylor.

STATEMENT OF THE HON. GENE TAYLOR, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF MISSISSIPPI

    Mr. Taylor. Thank you, Madam Chairwoman and Ranking Member 
Graves, and I want to thank you and your staff for working with 
me, Brian Martin and other members of my staff to try to 
resolve some of the problems that have surfaced since the 
storm.
    Ms. Norton. Is your microphone on?
    Mr. Taylor. I believe it is. I will get a little closer. 
Again, I want to thank you and your staff for working with 
Brian Martin and my staff and other Members as we recognize 
problems trying to find legislative solutions to them.
    I want to thank you for conducting this hearing and 
agreeing to draft legislation to resolve the remaining problems 
with FEMA and the Stafford Act that hinder recovery after 
Hurricane Katrina. More than 20 months after the storm, there 
are obvious signs of recovery on the Mississippi gulf coast. 
But we still have a long way to go. Many of the homes that were 
damaged but not destroyed have been repaired.
    Those that have been completely rebuilt are coming along 
more slowly. And every week when I go home I see a few more 
houses going up. Next week, the Mississippi Department of 
Transportation will open two lanes of a new 2-mile bridge 
across San Luis Bay reconnecting the cities of Bay St. Louis 
and Pass Christian.
    Unfortunately, there is one gaping hole in the recovery of 
the south Mississippi. During the time that the Mississippi 
Department of Transportation and its contract to Granite Archer 
built a 2-mile long high rise bridge across this bay, not one 
significant city, county or school building has been rebuilt. A 
few public facilities have been reopened, but none of the major 
public buildings that were destroyed along the Mississippi gulf 
coast have been replaced. If you ask the mayors, the county 
supervisors, the school superintendents about the status of 
their projects, they will all give you the same answer, we are 
still in the negotiations with FEMA.
    At this rate, the schools and local governmental buildings 
will be the last things built in Mississippi. When I see a new 
construction project anywhere on the Mississippi gulf coast, it 
is a safe bet it is not a public assistance project involving 
FEMA. We are finishing our second school year with many of 
these young people going to school in temporary classrooms. The 
Hancock County emergency 9/11 system is still operating out of 
a trailer. There are hundreds of project worksheets in 
Mississippi that are indefinitely delayed by never ending 
process of objections, revisions and disputes.
    FEMA is supposed to pay 90 percent of the cost to rebuild 
these facilities. But FEMA narrows the scope to exclude many 
costs that are necessary to comply with building codes and 
standards.
    My first and most urgent request is for Congress to mandate 
a fast track procedure and direct FEMA to get these public 
infrastructure projects approved, paid for and built. We need 
to require FEMA to apply common sense reasonableness tests to 
these projects that has been missing so far.
    I will give you a couple of examples from my home town of 
Bay St. Louis in the Waveland school district. At north Bay 
element school, FEMA says it will not pay any of the cost of 
relocating the temporary trailer classrooms to clear the site 
for a new school building.
    Also FEMA says the new building cannot be larger than the 
old building. But the classrooms from the old school were 
opened to outdoor walkways. That design does not meet today's 
safety requirements. The new building must have an interior 
hallway but that would add to the square footage of the 
building and FEMA won't approve it. At Waveland Elementary, 
FEMA has ruled that the center section is more than 50 percent 
damaged, but that the wings to the building are less than 50 
percent damaged. This means that the school district is 
required to rebuild the middle section 3 or 4 feet off the 
ground, but the wings that it touches will be left on the 
ground.
    There are two kinds of projects that are desperately need 
intervention to apply a common sense standards so that 
buildings can be rebuilt to current codes and standards. The 
current system has a strong bias towards rebuilding the same 
facility that was destroyed. In some cases, alternative 
projects would be reasonable or even desirable, but are 
discouraged because they will receive less money. Under current 
law, a local government loses 25 percent of its FEMA funds if 
it decides to bill a new structure rather than replacing a 
damaged one.
    Second Street Elementary in Bay St. Louis, built during the 
depression with WPA funds, is an old historic building that 
suffers storm damage. FEMA says it will cover new flooring, but 
not new electrical wiring. If the school district repairs the 
school to modern codes and standards, they will have to have 5 
to $7 million in cost that FEMA says it will not cover. The 
school district would rather consolidate the elementary school 
buildings by building additional classrooms at North Bay, but 
they would lose 25 percent of the FEMA funds for Second Street 
if they did so. FEMA should be encouraging cities and counties 
that lost buildings to consolidate projects. This is especially 
true in areas where FEMA is regarding the new construction to 
be built at higher elevations and stronger building codes.
    I recommend a change in the Stafford Act, so that there is 
no reduction in funding for alternative projects. FEMA should 
consider alternative projects on their merits rather than 
looking for loopholes to reject them. We have a chance to 
rebuild public facilities according to stronger building codes 
and disaster mitigation standards if FEMA would allow us to 
take advantage of this opportunity.
    My third request is for language to direct FEMA to apply a 
reasonableness standard to the dozens of disputed projects for 
reimbursement on debris removal. The main problem in many of 
these cases is that the local governments school districts and 
public utilities took decisive action in the immediate 
aftermath of the storm when FEMA was still nowhere to be found. 
After this fact, FEMA challenged their contracts for not 
complying with notice and bid rules.
    Madam Chairwoman, I realize I am over my time, so my 
question to you is would you prefer I submit the remainder of 
my statement for the record or--I probably got another 2 
minutes, so it is your call.
    Ms. Norton. Go right ahead.
    Mr. Taylor. Thank you.
    The Stafford Act allows emergency contracting procedures 
for 72 hours but then requires local governments to follow its 
bid requirements. The 72 hour requirement should have been 
waived a long time ago. In Hancock County, we had no 
communication, no electricity, no gasoline and certainly no 
leadership from FEMA for several weeks after the storm.
    All the public utilities did a phenomenal job and saved 
FEMA millions of dollars by making it possible for people to 
return to their homes. Elected cooperatives hired contractors 
to remove trees and other debris from their right of ways so 
the power crews could come behind and restore service.
    FEMA has denied reimbursement for some of these contracts. 
FEMA wants all the debris to be removal to be paid for by the 
cubic yard but the utilities paid their contractors by time and 
equipment. FEMA rules would have made the job more expensive 
and would have taken longer to restore utilities. I suggest 
language stating that FEMA can not disallow a contract by 
public utility during the emergency period simply for failing 
to comply with FEMA bid requirements.
    For public utilities the emergency period should be fine to 
extend until utility service has been restored to the service 
area. FEMA should then be reimbursed at a reasonable charges on 
time and equipment basis.
    School districts had a similar debris removal dispute. FEMA 
still has not fully reimbursed districts for debris removal 
because it did not follow FEMA rules.
    For example, FEMA said it would cut down the dead trees and 
limbs on school campuses but would not pay for grinding the 
stumps or cutting down the trees smaller than 2 inches in 
diameter. FEMA second guessing the local contracts is 
specifically outrageous because on their own contract, FEMA 
handed out billions of dollars in no-bid cost-plus contracts to 
Bechtel, Shaw, Fluor, CH2M Hill with almost no oversight. FEMA 
ignored the huge waste and fraud on its own contracts but then 
sent people out measuring stumps and limbs to deny 
reimbursements to local school districts.
    I have heard dozens of complaints from local officials 
about the cost of turnover among FEMA representatives. And 
Madam Chairman, I am a witness to this. In the immediate 
aftermath of the storm, FEMA filled its ranks by taking people 
from other government agencies, putting a FEMA jacket on them 
and sending them out to make decisions that involved millions 
of dollars. The FEMA representative on scene would go forth and 
tell a local county supervisor or a mayor or a school 
superintendent, go ahead and do that, we will reimburse it. 
When the bill came to be paid, that FEMA representative was 
long gone. The one that took their place then questions whether 
or not he was allowed in the first place.
    And so what we would ask for is more professionalism in the 
FEMA ranks. Don't send people down to a disaster area for a day 
or 2 or week or 2, or even a month or 2. If the recovery is 
going to take 10 to 20 months then we have to have a commitment 
from the FEMA employees to stay there for the duration so that 
a commitment made on the part of our Nation one day is upheld 
by our Nation when the bill comes due months later.
    Madam Chairman, you have been very, very generous. As you 
can see I still have a couple more pages. I want to submit that 
for the record. And I think we have made the points we need to 
make, and above all, I want to thank you for hearing us out. 
There is a lot to be done on the gulf coast we need our 
Nation's help to get this done. I just want to see to it that 
it is done in a cost-effective manner for every American and 
that the folks in Louisiana and Mississippi and the entire gulf 
coast are treated fairly.
    Thank you for having this hearing.
    Ms. Norton. I want to thank you Mr. Taylor. Your testimony 
contained just the sort of concrete examples we are looking 
for. We don't want to sit here and kind of dream up examples 
from what we read in the newspaper. That is why we are hearing 
directly from Members of Congress who are the first person 
people turn to. They don't turn to the committee. They turn to 
you. So this is just the kind of testimony we are after.
    And I am pleased to welcome my good friend, Mr. Pickering, 
who I worked with in the past and I am pleased to hear his 
testimony as well.

 STATEMENT OF THE HON. CHARLES PICKERING, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Pickering. Madam Chair and Mr. Graves, as the ranking 
member, I appreciate the committee's hearing those from 
Mississippi and Louisiana as we try to find the ways to finish 
our recovery and to speed the recovery and get the help to our 
communities back home.
    I want to commend Congressman Taylor for his 
recommendations and his proposals and I want to join with him 
in complete agreement on his proposals, his identification of 
the problems that are remaining and to join with him as he has 
led the way on the Mississippi gulf coast and has been a great 
example of someone who serves, leads and stands with his people 
during a time of disaster.
    I want to join him in talking about many of the same 
issues, and I will get to that. But first, let me just say as 
we look at FEMA not only as we finish the recovery, but as we 
look at the future reforms, you look toward the Coast Guard and 
you see a mission-oriented culture, one that emphasizes speed 
to rescue because they know that a life is at stake and you may 
have that golden hour in which you can make a difference.
    And we need to look at how we have FEMA structured and all 
of the bureaucracies that go with it and the inability to act 
in a quick, rapid way.
    Just as individuals can die or lose quality of life over a 
long period of time, if we do not quickly assist communities, 
communities too can die or have irreparable damage. And we do a 
disservice here in Congress not to reform and not to find the 
common sense solutions that will help not only Coast Guard 
quickly rescue, but have FEMA quickly recover and rebuild 
working with our State and local officials and the non profits 
and the voluntary organizations.
    In joining with Congressman Taylor, one of the things we 
repeatedly hear from our local officials is that we have too 
high a staff turnover in FEMA, no empowerment at the field 
level, no decision maker, no joint decision maker. You have 
multiple organizations. For example the IG can overrule the 
FEMA or the MEMA officials who have reached an agreement on a 
lot of the reimbursements on the schools and on the debris and 
on the other public facilities.
    And so, if we could unify command, unify leadership so you 
have one place to get the one answer that will give certainty 
and speed and stop the paralysis or the burden that is 
happening in many of our communities. If we could bring an FCO-
like individual who is empowered to make the decisions to 
support the local communities' good faith reliance on the 
directions given to the local officials in the beginning or the 
mid-point of the recovery.
    Only one-third of the transitional recovery office in 
Mississippi is permanently staffed. We need more staff to 
finish the job. Our theory is, as we go to the next hurricane 
season, if there is another hurricane with much of the 
outstanding work still pending in Mississippi, that we will 
lose the resources and what is a burden today could halt the 
recovery and do even more damage. We need quick assistance to 
finish the storm recovery. And that means more staff and a 
clear commander to finish the job, an FCO.
    The next issue is one that Congressman Taylor mentioned as 
well. We have 231 project worksheets that have been completed. 
Out of those, 132 have been pending for over 90 days. They have 
been completed. They have met all the standards. But they have 
not been reimbursed. And we need to find either the staff or 
the will to resolve those pending work projects that accounts 
to $41 million that is primarily on small communities, small 
counties, and in small companies that did the work after the 
storm.
    If we can give FEMA a date certain to close out this 
process, give them the staff and the leadership to be able to 
implement that date certain requirement, then I believe that 
will go a long way and give greater confidence and certainty.
    The reasonableness issue that Congressman Taylor mentioned, 
many of you are communities about half the debris was done by 
local communities and half done by the Corps of Engineers 
through FEMA and with a National contract.
    Many of our communities are being rejected reimbursement 
even though the cost of the debris removal was the same or 
lower than the cost of the Federal contract.
    And it seems to me if it is reasonable for the Federal side 
to get the reimbursement, it should not be--a local community 
should not be penalized or denied the reimbursement.
    Another example down on the coast when it comes to the 50 
percent rule, there was a school in Diberville, where the 
cafeteria was ruled that it was not damaged over 50 percent 
therefore it could not be replaced. But all the other 
classrooms were.
    They wanted to move 7 miles inland to be able to have 
higher ground to be able to have an alternative project and to 
have a safer place for the school to be rebuilt. They could do 
the classrooms, but they couldn't do the cafeteria. And now you 
tell me how does a school not have a cafeteria or transport 
students back and forth from a cafeteria to the classroom? That 
type of common sense ability to say this is a way that we can 
do it that is safer, stronger and better for the school and it 
should be reimbursed.
    And just finishing, Madam Chair, if we could empower a 
decision maker in Mississippi to finish the recovery, if we can 
get the staff necessary to do it, if we can have a time table, 
a time certain and a quick adjudication or arbitration process 
so that the reimbursements that are owed are done as quickly as 
possible. And then as we look forward to the next storms, we 
need to look for ways to emphasize the local response, similar 
to the Florida model of having contracts in place at the local 
level prestorm. We need to look at imposing prompt payment 
standards on FEMA and its reimbursements like we do in many 
areas of the Federal Government so that 2 and 3 years after a 
storm, we still don't have outstanding issues of payments and 
reimbursement.
    I believe the CBDG and the grants approach that has been 
used in the New Orleans and in Mississippi is an example of 
what can be done used at the front end of the storm not only at 
the back end, so you can have an insurance type model, so that 
if the assessment of the public facilities of an area equal a 
certain amount that a grant can be given to them without all 
the micromanagement, all of the bureaucracy and all the 
paralysis that comes from having to get every bathroom, every 
light bulb, every doorway, every square footage signed off by a 
Federal agency so that we can streamline the process and so 
that the rapid recovery can also be part of our strategy 
instead of the long delays that we are seeing in recovery. We 
need the rescue and recovery to have the same mission and that 
is a fast, speedy, efficient and accountable recovery.
    There are some other issues and I will be glad to submit 
those to the record. I know that I have gone over my time, but 
I do want to thank the committee and join with Congressman 
Taylor and the other gulf coast members as we find ways to help 
finish this recovery and then reform for the next storm. Thank 
you.
    Ms. Norton. Thank you, Mr. Pickering. Your district also 
was impacted we know by Representative Taylor's, he has gone to 
great pains to remind us.
    Mr. Pickering. His district was hit much harder, but the 
storm went all the way up, 150 miles into Mississippi. We were 
we were able to recover fairly quickly and we still have some 
issues in the counties I represent of still not being 
reimbursed. So it is across the board that we have some of the 
same problems.
    Ms. Norton. Let me ask you both, basically, what runs 
through your testimony is the, what would appear to be 
rigidities in the way FEMA deals with some of the issues which, 
anyone can see, from hearing you, and a common sense practical 
basis are issues that need to be dealt with forthwith. You may 
recall that after the disaster, we hauled in officials from the 
gulf coast trying to make sure that the money that was about to 
go out here in record numbers was not wasted.
    And if the truth be told, not so much I must say on the 
gulf coast but generally one of the major issues that has 
affected Congress in the last several years has been contract 
issues where the difficulty the Federal Government has in 
monitoring contracts, billions of dollars wasted from Iraq to 
contracts in this country for various purposes and lots of 
oversight now going on.
    Be assured that we are sitting in order to provide what we 
regard as one time, one place relief so we understand we are 
dealing with a special circumstance. But against the backdrop, 
I have just mentioned any ideas you have on the necessary 
flexibility in contracts in particular and reconciling that 
with the Federal system to obligate funds in a manner that can 
be audited and accounted for so that the agency doesn't have 
this coming back at them? Have you thought--and I recognize you 
are not auditing experts. But at the same time, we go about 
these flexibilities that is going to be a major issue.
    How can you streamline it while making sure that if 
somebody goes in and audits it they don't just find here there 
and everywhere waste that then comes back and haunts the 
agency? Yes, sir.
    Mr. Taylor. Madam Chairman, if I may, what I was really 
struck by was in the immediate aftermath of the storm, people 
just made decisions. My two mayors closest to my personal home 
sent policemen to the Wal-Mart, to the grocery store, to two 
grocery stores, posted them at the door and said, look, FEMA is 
not here. People have to eat. They can go in and they can take 
food they can take a change of clothes. If they take anything 
other than that they are going to be arrested. I was there when 
the head of the Mississippi emergency management told a guy who 
had just delivered a load of ice that he was commandeering his 
truck because we had to have a temporary morgue. Good decisions 
were made on the spot by people who knew this is what we have 
to do.
    And then you contrast that with some of the examples I have 
given you 20 months after the fact, because I think you really 
are dealing with, to a very large extent, a lack of 
professionalism within FEMA, people who don't know the rules, 
people who are afraid of the rules and then people who rely on 
the rules for a reason to say no which as we all know is the 
easiest thing to do.
    What I would recommend is some sort of a cafeteria of 
options. You know some of these communities are--I made mention 
of the Old Bay St. Louis schools built there since 1920s. I 
would hope that that city would be given the option of saying 
there is a historic structure, it is getting close to 100 years 
old. Sure, if you want to bring it up to OSHA, of you want to 
bring it up to ADA standards, if you feel that that is an 
integral part of your community and you have lost so much in 
your community and you want this as one of those things that 
you want to be a cornerstone yes we will give you the option of 
restoring it.
    If, on the other hand, if the local community says you know 
what, we just as soon have as Chip mentioned a new school 
further inland that won't flood next time, they ought to have 
that option as well.
    But I think what we are going to have to do legislatively 
is spell that out for those many options exist. And above all, 
I can't emphasize enough, we had people come down to help us 
who may have been great foresters, who may have known a world 
about aqua culture, who may have known a lot about boll 
weevils. All good in their own profession. But what we saw was 
for lack of a professional staff at FEMA, these people were 
literally grabbed, sent down to south Mississippi. Somebody 
slapped a FEMA jacket on them and said now you are an expert. 
They didn't know the job. It wasn't fair to them. It wasn't 
fair to the local communities.
    The other thing I would ask to come out of this is if we 
have to spell it out in the code, some sort of professional 
qualifications for people who are going to respond to these 
types of disasters and make multi-million dollar decisions. And 
I think both of those them are important. A cafeteria plan, you 
and I have a cafeteria plan on our options on our health care. 
The cities ought to have a cafeteria plan of options of how to 
respond to these storms and what they want to do with their 
buildings.
    Ms. Norton. Some of what you describe would mean that if 
FEMA did it the way they "usually do," they would spending more 
money and perhaps even wasting money. You don't want to build--
look, this is even, on the best of circumstances, this is a 
flood prone area. So obviously, we don't want to build in a 
way--but let me suggest just hearing your testimony, there is a 
dichotomy between two kinds of expenditures. One which is truly 
unconscionable, if you consider the people who went out and did 
what they had to do to help people survive, that is 
reimbursements that are still outstanding.
    It seems to me that on those, the committee could look at a 
fast way to get those reimbursements done. They were done, one 
could carve out a period of time, a kind of reimbursement after 
the Act and that is one category.
    There are ongoing matters which fit the gulf coast and 
probably wouldn't fit other places where one could show--it 
seems to me--I am relying on your testimony now--that to do it 
the way they are going to do it is either wasteful to the 
jurisdiction or causes loss to FEMA funds, or is wasteful to 
the Federal Government.
    I am looking at your testimony about when to consolidate 
additional classrooms. Now, it does even say that they want 
more classrooms but they want to consolidate them. And I am 
looking on Page--they are not numbered. The school district 
would rather consolidate the elementary schools by building 
additional classrooms at north Bay elementary school. But they 
would lose 25 percent of FEMA funds for the second street if 
they do so.
    Mr. Taylor. Yes, ma'am.
    Ms. Norton. You are not saying it would cost more are you?
    Mr. Taylor. It would cost more then, and again, I am asking 
you to keep in mind I used to be a city councilman in that 
town. The cities of Mississippi live on sales tax. That is 
their primary source of revenue. The cities that were the most 
dramatically impacted by the storm lost all their stores. They 
have no source of revenue. The city of Pass Christian to this 
day really does not have a major store in the town. So Pass 
Christian is a perfect example.
    Bay St. Louis is a very good example of a city that has 
lost a great deal of tax revenue coming in, has lost most of 
their buildings and now is in a position of having to replace 
them. So when a Federal Government tells a city like Bay San 
Louis or Pass Christian, you are going to have to pay 25 
percent more to do it right, where is the more going to come 
from.
    Ms. Norton. Some of this is case-by-case, but again, in 
case-by-case, it does seem to me you could figure out whether 
or not you are wasting money by doing it the old way.
    Mr. Taylor. Mrs. Norton, can I just throw one more thing at 
you because this is related to your jurisdiction. We are 20 
months after the storm. And FEMA has not updated the flood 
maps. You mentioned flooding. You mentioned do we really want 
to build a school in a place where it is going to flood? Twenty 
months after the storm, those maps have not been submitted to 
the cities. The cities are operating under interim rules that 
said, go back and tell everybody you have to build 4 feet 
higher than you used to be. I know it is a shared jurisdiction, 
but it has to start with FEMA. If FEMA is going to come up with 
rules saying you have to be at a certain elevation, they have 
to come up with flood maps.
    Lastly, and I tried to shorten my testimony, they have to 
use some common sense. Obviously you want a school in a place 
that is not going to flood. You want it high enough that it is 
not going to flood. But telling a bus stop that you won't 
repair that facility for a bus stop unless it is 25 feet above 
sea level when the ground level is 3 feet above sea level is 
insane. A beach rest room telling them it has to be 25 feet 
above sea level when the beach is at sea level is insane. There 
are a lot of ways to work around this----
    Ms. Norton. The bias toward building the same facility 
cannot obtain in such a catastrophic way. They of course have 
the issue. We see what the issue is. People can game the system 
to say now that we have got FEMA here why don't we build a 
state of the art system. On the other hand where there is a 
catastrophic event, you really don't have the option of 
building the same facility where it will, in fact, in a flood 
prone area encounter the same problems. This notion about 
building on sticks and you have to do so for the bus stop that 
is really late night comedy stuff.
    Mr. Taylor. But Madam Chairman, that is a real life 
example----
    Ms. Norton. Let me just say this. FEMA does have the 
flexibility to do some of this. But you can see they are afraid 
to do it and that is what the committee's job is. I don't have 
a lot of--your examples really say the--really tell the 
stories. One thing that really bothers me a great deal, it 
would bother me beyond the gulf coast, I think the committee 
needs to look more seriously at this period that you say on 
page 2 of your testimony, Mr. Taylor, that FEMA is supposed to 
pay 90 percent of the cost of rebuilding these facilities 
narrows the scope to exclude many costs that are necessary to 
comply with building codes and standards.
    I asked staff what does she know about this, and I said 
that sounds nonsensical, we are going to build not to code, and 
they may have the notion that you have to build it to the old 
code that was in existence when it was built rather than the 
code that the agency has been at pains to upgrade the matter 
to, but how could the Federal Government possibly justify not 
building to code, whatever is the code in existence now?
    Those are examples of things we are going to have to look 
at.
    Certainly in your area--and I would say I would really want 
to look at the notion of recognizing that costs may be involved 
and we will have to look more closely if we talk about 
noncatastrophic areas. But I would hate the Federal Government 
to be caught not building to code when States have required, 
seems to me quite justifiably, that facilities come up to code 
needs a lot of scrutiny.
    Mr. Taylor. Madam Chair, just the last point, the Americans 
with Disability Act was passed after most of these schools were 
built. So that is one code change that is obviously expensive, 
obviously done for the right reasons, but something that should 
be addressed and hopefully, since our Nation has mandated it 
now and I voted for it----
    Mr. Ortiz. There is no way in which the Federal Government, 
which administers the ADA, is going to say build but not in 
compliance with the ADA. We have to make that plain. We have to 
make that plain. Mr. Graves.
    Mr. Graves. Thank you, Madam Chairman. In our FEMA reform 
bill that we passed last year, I know you guys were pretty 
active in creating a long-term recovery office and you are 
supposed to hire 2- and 3-year employees so that they would be 
around because, Gene, you have obviously spoken to the problems 
we are having, and Chip, you did, too, to the guys coming in 
and making decisions and then being gone. We were supposed to 
have these 2- and 3-year employees. And we are also supposed to 
push the decision making authority down to the Gulf Coast 
Recovery Authority that was there.
    Now, my question is are these things not happening? And is 
DHS--because I know there was pushback from the Department of 
Homeland Security on what we were trying to do. Are they still 
making all those decisions at the top? Are they not pushing it 
down? Either one of you.
    Mr. Pickering. For example, the transitional recovery 
office, we are now in our third acting director and that is not 
a permanent director. It is the third acting director. And 
again, a lot of that office we only have one-third staffing. 
And so a lot of what we try to implement in the FEMA reform is 
not being carried out. And I think that is why 20 months out of 
the storm they don't have the staff to be able to make the 
final decisions to make, to close out a lot of the work orders 
that have been done and completed and a lot of the issues. You 
have a split between the IG and the office, and they make 
conflicting decisions, and then it paralyzes any resolution so 
you have no quick resolution mechanism.
    And so I think that if we can give deadlines, one of the 
things that Gene mentioned not to have the FEMA flood maps. We 
need a deadline for that. We need deadlines for these 
reimbursements or a dispute mechanism that will allow us to 
quickly get there.
    And we need to direct FEMA to fully staff and to get 
someone in charge so that there is a clear command and control.
    Mr. Graves. Three acting directors.
    Mr. Pickering. And that is in 20 months.
    Mr. Taylor. And again, not a single public building has 
been replaced in coastal Mississippi. Look they are good 
sports. They are working out temporary trailers. They are doing 
their jobs, but at some point, these trailers themselves become 
a hazard. In fact, they become a hazard the next hurricane 
season because they become shrapnel when the wind grabs them. 
They are just not made to be down there when the wind blows 
over 100 miles per hour.
    Mr. Pickering. Let me just add that everything that slows 
the recovery increases the cost of recovery, labor material and 
land goes up. Time is money. And what they--for example, all 
these small companies and counties and communities if you have 
$41 million outstanding, and you are having to bear all the 
interest and all the delays and all the losses and you don't 
have sales tax, all the burden is on the local community. We 
really need to shift that, have a prompt payment requirement, 
so that if the Federal Government doesn't reimburse in a timely 
way then the Federal Government has to pay penalties and 
interest just like an individual taxpayer does if they don't 
pay their tax bill on time.
    So we need fairness. We need quick response. And we need 
some resources just to make sure that FEMA has the people to do 
the job.
    Mr. Graves. The Federal Government obviously ought to start 
acting a little bit more like everybody else has to and just as 
you say, do their job, but the longer this stuff waits, the 
more it costs. You are exactly right, and it continues to add 
to it.
    Mr. Pickering. Mr. Graves, let me just add, Madam Chair had 
asked about contracts. Let me just give you an example as we 
look forward. We had about 40 million cubic yards of debris 
just in Mississippi. Now half of that was done through a 
Federal contract, and the rest was done by local communities, 
and counties roughly equal each about 20 million. And what we 
have seen from the data that we have is that the local 
communities cleaned up the debris at about half the cost that 
the Federal Government did. The Federal cubic yard average was 
$31 a cubic yard and the average for local community was around 
$15 a cubic yard. Now that is a huge difference in resources to 
the taxpayer but also the local communities usually did it 
faster. The local communities are the ones who are getting 
stuck without their bills being paid and the local companies 
are having to carry all that cost.
    So they did a--now, I do think and agree with Congressman 
Taylor that there is going to be some places that have to have 
the Federal contract and the Federal assistance, but we need to 
shift in the future to emphasize having local contracts in 
place because it is best for the taxpayer and best for the 
local communities.
    And I think it speeds recovery. And then if we can fix the 
reimbursement to local communities, and in a timely way, then I 
think you have an ability to take an organization, FEMA, that 
is slowing recovery and make it actually accelerate the 
recovery.
    Ms. Norton. Thank you very much. Those of you who can vote 
have a vote coming up in a moment. And we want to finish with 
this panel. And I have only one question. I was a little 
perplexed by the first page of your testimony.
    Mr. Taylor, in which you appear to complain about the 
building of a bridge across the Bay without building any 
public--any significant public buildings. I understand about 
the public buildings. Are you saying the bridge was not vital 
or necessary.
    Mr. Taylor. Oh, no, ma'am, we are very grateful for that 
bridge, believe me, these are two communities that used to be 
joined at the hip. The points I am making is if they build a 
bridge from scratch in 20 months, they ought to be able to 
build a city hall or a school.
    Ms. Norton. I see, yes, indeed it would. Finally, just let 
me say to you before you go to vote what we are discussing here 
are really the day-to-day matters that determine for people 
whether they want to continue to live in this major part of the 
country, and to say to their relatives who haven't decided 
whether to come home, whether or not to come home or not, we--
these may seem small matters to people outside of your 
jurisdictions. But these are the things closest to the people. 
And these are the things that make the decision for them.
    I want to put you on notice that we are later going to have 
a hearing or a set of hearings that I call repopulation and 
continuing population growth in the gulf coast. And these 
hearings are going to focus on three issues which we also think 
everything is said and done, is going to decide the issues of 
population growth.
    These are insurance, you can talk about housing until you 
are blue in the face but if we don't find a way for people to 
get insurance, people understand they are not supposed to come 
back. Talking about levees, how much assurance do people need 
that they are not going to be subject to another flood 
tomorrow. And the third thing is public safety. These things 
are overarching issues, just as we think these are the issues 
that decide people right now.
    The difference is that these issues are the issues that 
people are using to make their decision right now whether to 
come home, whether to stay or whether to do what Americans have 
done since the beginning of our country, move on. This the 
great frontier. Mississippi was one of the places that you went 
to. You left the east coast. You left the midwest. Hey, guess 
what, we are at the end of the frontier. And we want to make 
sure that the gulf coast, both of these places, were prime 
sources of revenue for their States. They lost their tax base. 
That means your States are out of luck. We want to make sure 
that repopulation where oil is, this is where many of our 
resources are. We want to make sure that these States are 
repopulated. We want to do it now, to make sure that FEMA hops 
over all of this rigidity and makes a decision it must make 
now.
    And we want to do it in the long run to make sure people 
understand that the overarching issues can be dealt with and 
are being dealt with, and I hope I haven't made you miss a 
vote, but cast one for me, too, if you would.
    Mr. Taylor. Madam Chairwoman, you may live 1,100 miles from 
south Mississippi, but you could not have summed up better what 
needs to be done than you just did, so thank you very much.
    Mr. Pickering. Thank you.
    Ms. Norton. We will reconvene, it is my understanding there 
will be 5 votes, 45 minutes, and I guess it is the New Orleans 
Louisiana delegation we will hear from you which is our last 
set of members.
    Ms. Norton. In light of the hour, we are going to resume 
testimony with the members of the Louisiana delegation who are 
here. Others, as they come, of course, can join them. So I am 
pleased to welcome Mr. Baker, who I think is a member of the 
committee. And Mr. Boustany, to begin their testimony.
    Mr. Baker. I am sorry, Mr. Boustany, is also a member of 
the committee.
    Ms. Norton. Mr. Baker.

   STATEMENT OF THE HON. RICHARD BAKER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Baker. Thank you, Madam Chair. I appreciate your 
courtesy in conducting the hearing and in moving ahead in such 
a timely manner. I wish to preface my remarks which are a very 
succinct summary of the written statement by expressing the 
view that the rules and mechanisms in place from FEMA to 
homeland security to everyone never contemplated resolution of 
an event so catastrophic in scope, and I believe in most 
instances, the rules are constructed for matters of 
inconvenience lasting a few days when power outages are 
minimal, when there has been relatively modest dislocation of 
individuals and where most of the social order of the community 
affected remains intact, meaning law and order, schools, 
grocery stores, and facilities generally needed to accommodate 
the needs of those living there.
    In this instance, in response to the Katrina-Rita matter, 
these storms were so overwhelming they overwhelmed the law rule 
and common sense. For example, it may not be uncustomary for 
the expenses of FEMA in a mobilization effort of short 
duration, to have a very high administrative costs. In the 
first quarter of the storm's resolution, 26 percent of all the 
moneys that the public assumed were going to help individuals 
went first to pay FEMA operations, and that is administrative 
costs, that is not FEMA grants or assistance given to 
individuals. I thought that rather high, but I examined it 
after the last 12 months of operation, and the number still 
remains about 22 percent.
    In the case of Louisiana, that was a recipient of slightly 
more than $32 billion, far less than some would have imagined, 
about $7.5 billion of that leaving us with a net of 25 actually 
went to FEMA first. That is a matter which I believe, at least 
for the sake of accuracy and reporting, should have a separate 
funding category away from that which is categorized as 
assistance to communities.
    So taxpayers have some better understanding about where 
their dollars are actually being allocated. Secondly, is that 
some significant disparity with the treatment with local 
officials and local responders in the way their expenses were 
characterized and reimbursed. One area that has been most 
sensitive is the area of lost revenues or foregone revenues. In 
the case of the most natural disasters, there are public 
facilities which are inconvenienced for a matter of a few days 
at worst, often the inconveniences over a weekend where there 
was no planned activity. In the case of Baton Rouge and our 
river center, which is an enormous facility that housed, at one 
time, housed over 7,000 people, it was out of utilization for 
approximately 2 months. This was not by voluntary act of the 
city, it was by FEMA's decision to take that for its purposes. 
Not that that wasn't a legitimate and reasonable thing to do. 
But the expenses, the revenue lost to that entity because of 
the forced utilization over a two-month period has a direct 
bottom line impact on the viability of that governmental entity 
over the course of a year.
    But yet that is not now something in these extreme 
circumstances which can be considered as a reimbursable item. 
Also in analyzing the method of expenditure, there was no 
common standard that taxpayer consequence be a priority in 
determining what action should be taken. As a, for example, we 
have in Financial Services changed modestly the requirement 
that a housing resolution not be exclusively temporary in 
nature. The reason for that is modular housing put on a slab--
this comes from Fannie Mae and Freddie Mac could have been 
constructed in 90 days or less on available properties for a 
cost per unit on average of $60,000. The cost on average per 
unit to install--to acquire move install and make the trailer 
habitable was $72,000.
    Secondly, I don't know how the counting was done on how 
many trailers initially should be acquired. I don't believe 
there was a survey of any sort from those persons who were in 
the various centers. If trailers were made available, would you 
utilize it? It is my understanding that although there are 
9,000 trailers still in Hope, Arkansas on a $5 million gravel 
pad, although 4,000 units have never been deployed or unwrapped 
as they call it. It seems that excessive expenditure was not 
warranted, and in instances since Katrina, those trailers have 
remained undeployed despite the fact there have been others who 
have lost their housing inventory.
    Two other recommendations--and I shall be brief. One is 
more the predeployment storm season of various assets. There is 
one big box store in the country. There are many, but one in 
particular who has their own meteorological department. They 
track these storms the way homeowners track. And when the storm 
is a few hours out, they redivert Pop Tarts and batteries and 
lanterns to those locations. When the storm path changes or the 
storm is leaving, they will bring in generators, blankets, 
tarps those things people need after the storm.
    My observation is in speaking to some of the management, 
they do a much better job of deploying needed resources into 
the marketplace and their penetration into residential areas is 
quite significant that if we were to engage in some sort of 
Federal negotiation prior to each storm season, we are a month 
away, what would be our response tomorrow if a storm came 
across North Carolina? Where are the Federal resources? And it 
is the emergency nature of the spending pattern that spikes the 
cost rather than a prenegotiated contract for deployment of, 
say, an overnight basket for an individual with a blanket, a 
flashlight, a bottle of water and a few Pop Tarts. Those could 
be readily displayed by the box store itself or handled by the 
National Guard or those volunteers.
    Another point, when individuals came with manufactured 
material in the manufactured seal to the river center to give 
the material to the Red Cross volunteers and others managing 
the center. That was not accepted. We have a very large 
bottling facility in my city capable of manufacturing 
considerable amounts of bottled water. Unless you had a 
previously agreed-upon purchase agreement relationship with the 
Red Cross, those contributions were not made available at great 
loss to those individuals who were of necessity in the river 
center. One last idea, in this day and age of Internet access 
and sophisticated technological deployment, we should have in 
place some catastrophic risk analysis system that is in real-
time. By that, I mean you could turn on your TV and go to a 
channel, maybe run by the weather station, go to your computer 
on the Internet, and there should be an ability of FEMA, the 
National Weather Association, other critical entities, 
including State police to give you highway conditions, the 
hotel-motel association where you could look on the map before 
the storm's landfall, and by color coding, see whether or not 
you are at risk, see whether the traffic is flowing on 
particular evacuation routes, even display the availability of 
hotel rooms so people get a sense that this thing is coming and 
if I don't get out now, the roads are going to be impassible or 
I am not going to be able to find temporary housing for my 
family. It is not that easy to construct, but it would be 
vitally important. This would be real-time data so that any 
input from any Agency would go into an algorithm and present 
the map based on the real-time risk assessments.
    I think something of that sort would greatly facilitate 
earlier departure by residents at risk and enable those of us 
who are wanting to be of assistance to be better informed about 
the hazards that we face. With that, Madam Chair, I yield back.
    Ms. Norton. Thank you, Mr. Baker. I am reminded of the 
Weather Channel which almost is there. If you look at the 
Weather Channel, very scientific movement of the storm.
    Mr. Baker. It wouldn't take much to upgrade that to where 
it would be a real systemic matter on housing transportation 
and others.
    Ms. Norton. Absolutely. Mr. Boustany.

  STATEMENT OF THE HON. CHARLES BOUSTANY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Boustany. Thank you, Madam Chair. Thank you for 
providing me the opportunity, and I would ask unanimous consent 
to stick my entire written record--written statement in the 
record. Let me start by saying from the beginning, this 
subcommittee has been a very strong advocate as we have worked 
together to recover in the gulf coast. And I am pleased that 
the tradition continues today with this hearing. I do want to 
remind my colleagues that there were two storms of similar 
magnitude that hit the gulf coast in 2005; Hurricane Rita, the 
second storm, brought high winds in excess of 120 miles per 
hour and a storm surge equivalent to that of a category 5 
storm. The total damage is estimated at approximately $10 
billion, making Rita--which we call the forgotten storm in my 
district--the third costliest natural disaster in U.S. history. 

    Eighteen months after the storm, many impacted local 
governments organizations and individuals have simply chosen to 
move on rather than wait for aid. In addition, much of the 
disaster assistance, literally billions of dollars worth is now 
being held up by bureaucratic red tape at the State level, 
which Congress has little control over. The subcommittee can 
make a big difference by examining some of the lessons we have 
learned and consider possible changes to the Stafford Act that 
might help prevent these problems from recurring. Inconsistent 
FEMA policies and procedures and constant staff turnover have 
plagued recovery efforts. For Vermilion Parish for instance, in 
Vermilion Parish officials spent months working under the 
assumption that two school buildings damaged by the storm were 
eligible to be rebuilt. After parish officials bought land to 
accommodate one of the schools, it was then subsequently 
determined that a low-level FEMA field representative had made 
a mistake and, in fact, a very costly mistake and the schools, 
in fact, would not be rebuilt.
    The information being provided by FEMA should be accurate 
and consistent. More needs to be done to implement the reforms 
Congress passed last year to prevent staff turnover, and to 
ensure stability in the regional offices. I can tell you as a 
heart surgeon, I would never start a heart operation with an 
inexperienced team and then have turnover in the midst of the 
operation. That is just not good practice. And I think the same 
applies to FEMA during emergency circumstances. We also need to 
do a better job of getting Federal disaster aid into the hands 
of victims quickly and efficiently while still providing 
safeguards against fraud and abuse. Much of the aid Congress 
approved last year is still sitting in Baton Rouge, our State 
capital, waiting to be spent.
    According to FEMA, only $27 million of the $99 million 
currently available in public assistance funds for Cameron 
Parish have been released. The current payment system should be 
streamlined so that applicants are not required to go through 
multiple layers of government bureaucracy to receive payments. 
FEMA should also be able to reimburse other Federal agencies 
for work they perform after the disaster. Over 250,000 dump 
truckloads of posthurricane debris including tanks as large as 
18 wheelers were scattered throughout the Sabine National 
Wildlife Refuge. The refuge did not have the funds for cleanup 
and was ineligible for reimbursement under the Stafford Act.
    Eight months later, Congress ultimately provided funding 
for the cleanup, but we shouldn't have to wait for 
congressional earmark to move forward while thousands of 
gallons of hazardous material threaten our wetlands and 
critical habitats. There ought to be an interim agency in 
place. Louisiana's local State and law enforcement also had to 
wait nearly 6 months to receive vital funding to aid in their 
justice system recovery.
    As a result, we learned that State and local agencies can 
better serve the public and respond to law enforcement needs in 
a disaster area quickly if funds are provided directly through 
the Justice Department's Bureau of Justice Assistance, which is 
the traditional conduit for Federal law enforcement funding. I 
would like to work with the subcommittee to provide FEMA with 
the authority to release emergency funds directly to the 
Department of Justice Bureau of Justice Assistance to aid law 
enforcement recovery efforts. I think this is very important.
    Debris removal on private lands is another issue that is 
not so cut and dry. Taxpayers certainly should not have to foot 
the bill for cleanup on private lands. But in one instance, a 
public building was washed away and set on private land within 
a subdivision. The homeowners were required to pay for the cost 
of removing public debris. The Stafford Act does not currently 
allow for reimbursement for removal of public debris on private 
lands. And this is something that should be addressed. FEMA 
should also be required to reimburse expenses incurred for 
reinternment. This is an issue we saw in Cameron Parish, and I 
believe it also happened in Orleans Parish as well.
    In Cameron Parish nearly 350 bodies crypts and caskets had 
to be reinterned after the storm. Local mortuaries undertook 
the task at their own expense and still have not been 
reimbursed. We should respect the deceased and ensure that the 
remains are interned quickly and with the dignity that they 
deserve. We shouldn't have to spend months and months trying to 
figure out whose responsibility it is to bear this cost.
    There is no doubt that Hurricane Rita has forever changed 
the coast, but no force of nature is strong enough to destroy 
the spirit that is helping the people of southwest Louisiana 
recover and rebuild. Much more work remains to be done, but we 
can learn from this tragedy and prepare ourselves for future 
disasters of the magnitude of Katrina and Rita. The 
subcommittee should use this unique opportunity to make the 
changes that need to be made now so that future recovery 
efforts aren't hindered. Thank you, Madam Chair, and I will be 
happy to answer any questions, Madam Chairman.
    Ms. Norton. Thank you very much, Mr. Boustany. I will go on 
to Mr. Jefferson. He was actually the first in the room here 
when we opened the hearing.

 STATEMENT OF THE HON. WILLIAM JEFFERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Jefferson. Thank you, Madam Chair. I have had the 
benefit of hearing everyone's testimony, except Mr. Jindal's 
now, since I have been here since 2:00. It is a wonderful 
opportunity to be here with you, and I thank you very much for 
this chance to appear before your subcommittee. In New Orleans 
now, there are some 220,000 people who are not back home. Half 
our schools aren't open, half our hospitals aren't open, day 
care centers aren't open. The place really isn't really open 
for business fully. Our city has about 6 percent of its tax 
base back in place.
    As we consider how to best deal with the challenges that 
face us in rebuilding the gulf coast, we have the opportunity 
to prevent some things that went wrong from happening in the 
future. The Stafford Act was designed to provide a 
comprehensive framework for the government's response to a 
major disaster. As we have learned many aspects of it, however, 
however well meaning they are worked against this objective.
    I would like to highlight some of the more pressing needs 
that our community faced and in dealing with the limitations of 
the Stafford Act, and some ways that I suggest we may remove 
some of them. Providing transitional housing for our residents 
who wish to return is the most pressing issue we face. Without 
adequate transitional housing stock, our residents have no 
choice but to stay away from the city they call home and cannot 
begin to rebuild until they have resolved temporary housing 
needs.
    A good option for housing displaced residents would be to 
expand the rental reimbursement program and to provide more 
flexibility to meet the needs of specific disasters. In New 
Orleans, we have had numerous owners of damaged apartment 
buildings, for example, offer to use their own funds to 
rehabilitate their property in exchange for guarantees from 
FEMA that it would pay for the rates for its returnees.
    In this scenario, the local property owner would benefit 
from having a guaranteed revenue source and the tenants would 
be back at home to work school jobs and permanent housing 
solutions would also be in safe structures. Unfortunately, FEMA 
did not have the authority to set up such mutually beneficial 
arrangements and a great opportunity was lost. The Stafford Act 
relies too heavily on providing mobile or prefabricated housing 
units for displaced residents.
    Housing citizens in trailers acceptable on a short-term 
basis, maybe a month or so. However, a disaster of Katrina's 
magnitude long-term housing in trailers is blatantly 
unacceptable. We now are nearing the 2-year anniversary of the 
storm and we still have thousands of residents in trailers. As 
another hurricane season approaches, these individuals are in 
great danger should another catastrophic storm hit the gulf 
coast. Forgetting just after the storm and continue well into 
subsequent weeks, nations across the globe volunteered to send 
financial assistance, manpower support and goods in kind to 
help alleviate the situation.
    Unfortunately, our own incompetence left these generous 
offers on the table and the needs of thousands of hurricane 
victims went unfulfilled, an allegedly overtaxed FEMA simply 
didn't accept many these offers or slowed them down with 
bureaucratic inertia. From three of our staunchest allies even, 
Canada Israel and Great Britain, we declined 54 of 77 aid 
offers. Offers of communications equipment and aid supplies, 
two of our most pressing needs, were never accepted. Even when 
we did physically receive items from abroad there was no system 
in place to adequately distribute them. A shipment of medicine 
and supplies from Italy were left to perish in the elements and 
were rendered unusable, almost 6 million meals spoiled due to 
inadequate storage capabilities. Considering the tragic 
suffering of our citizens who were stranded in various places 
in our city with virtually no sustenance this massive oversight 
is especially cruel. The Greek government offered to send two 
large cruise ships to the gulf to serve as badly needed 
hospital facilities and housing for residents and emergency 
personnel. The offer was rejected by the Department of Homeland 
Security, but shortly thereafter, contracted with the carnival 
cruise lines for two of their ships at a cost of $249 million. 
We must increase our storage network's capabilities and 
establish a streamlined process by which donations in kind can 
be accepted and distributed.
    The United States Government should never again be in a 
position to turn down the generosity of other nations due to 
our own logistical problems. The safeguards and the Stafford 
Act designed to ensure that local businesses receive contracts 
have proven ineffective. Lucrative contracts were given to a 
small group of national firms who then had no incentive to give 
subcontracts to local companies and low performance standards. 
Worse, local contractors who were given low-tier contracts 
calling upon them to do the actual work, but for sometimes 1/7 
of the profits received by the large firms. We have seen the 
number of businesses in the New Orleans area left out in the 
cold, watching as trucks with out-of-state license plates 
perform work they rightfully should have been doing. Local 
preference guidelines must be codified to ensure that a 
specific number of contracts go to small business. Here is 
where I think--here is the question that is presented. The 
current language as written gives a preference to local 
businesses. But provides no mechanism or guidelines for its 
enforcement. Does a local preference mean all things being 
equal, the local firm is awarded the contract? Or does it mean 
competition must be set aside for qualified local firms unless 
none can be found?
    The latter construction is the only way to ensure that 
local--that the local program is really meaningful. I might say 
that at a different hearing in New Orleans we found out that 7 
percent of the contracts that were given out were to local 
firms. Their issue of prompt payment we heard about earlier. I 
won't dwell on that. I see my time is rapidly running out here. 
We have seen a logjam at the State level when dealing with CDBG 
funding. At the Federal level, money is allocated based on the 
needs of damaged areas. Once at the State level, however, this 
funding is diluted by other interests. Funding that must be 
approved by the State is slowed down by the legislating.
    Locales not damaged by the storm but which housed large 
numbers of evacuees for instance have sought reimbursement 
expenses incurred. With that relative strength in the State 
legislature, this topdown approach results in legislators 
outside of severely affected areas having a disproportionate 
influence over where funding ends up. The end result is that 
badly needed funds are not flowing nearly as quickly as they 
should, nor in full amounts to ravaged areas that Congress 
intended. To alleviate this problem and create a more flexible 
distribution of dollars, money should be granted parishes or 
counties based on the devastation each sustained.
    Due to the sheer magnitude of the destruction to our 
infrastructure, the gulf coast has countless construction 
projects funded through project worksheets. When calculating 
the cost to replace equipment vehicles or facilities, the 
Stafford Act provides that funding will be provided only for an 
equivalent item. This inflexible policy frequently results in 
absurd outcomes. If a building has a 20-year-old air 
conditioning system that is completely destroyed, then the only 
authorized replacement is another 20-year-old unit rather than 
a new unit that is comparable in performance.
    A century old school building can only be renovated to the 
specifications that existed prior to being damaged and cannot 
be improved in any way. This is simply a valuation issue that 
requires correction. Reimbursement costs should be provided to 
items or structures that are similar in function to what was 
there previously and not a carbon copy to what is likely 
outdated equipment. We learned a good number of lessons from 
this recovery and what should be done with respect to making 
this program work better, Stafford Act work better. There are 
many other things I could like to say, but my time is long 
past, and I would like to submit the rest of my testimony for 
the record, and I thank you for the chance to speak with you 
about this.
    Ms. Norton. Thank you very much, Mr. Jefferson.
    Ms. Norton. Mr. Jindal.

    STATEMENT OF THE HON. BOBBY JINDAL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Jindal. Thank you very much, Madam Chairwoman, as well 
as the ranking member. Thank you for the opportunity to be 
here. I, too, would like to submit my written comments for the 
record. I will not repeat what many of my colleagues have said. 
First of all, I want to thank the committee for its interest in 
reforming the Stafford Act to help address not only the Katrina 
and Rita situations, but also future storms. I am also grateful 
that so many of our colleagues have worked with us to pass 
already some important FEMA reform provisions including last 
year's homeland security appropriations act. For example, we 
advocated for several measures, for example to improve FEMA's 
response and preparedness, creating and deploying Federal 
strike teams to provide the Federal Government first line 
response to a disaster. Secondly, establishing prenegotiated 
contracts to provide surge capacity for critical resources by 
the disaster.
    Third, establish national asset and inventory program to 
track and identify community needs during a national emergency. 
Fourth, and perhaps most importantly, transferring the 
preparedness functions within the Department of Homeland 
Security back to FEMA, so they can be unified with response as 
preparedness and response go hand in hand, and we must do all 
that we can to prepare for and respond to future disasters, 
especially as a start of the next hurricane season rapidly 
approaches. However, I believe even as it was essential to 
reform a system that was ineffective at both the State and the 
Federal levels there are still many outstanding needs and steps 
that we can take to break the current red tape and bureaucracy 
which are still plaguing recovery in the gulf coast.
    Twenty months after those hurricanes, Katrina and Rita, the 
inadequacy of the Stafford Act as well as the inconsistency and 
inflexibility in FEMA's interpretation of it and these 
extraordinary circumstances continue to hinder Louisiana in our 
rebuilding efforts. I would like to focus our attention on 
three main areas. The first is reforming the hazard mitigation 
grants program, but to provide more flexibility. Recently, our 
State has discovered a shortfall within the road home program 
and that highlights a perspective revenue stream that is 
current being disputed between FEMA and State of Louisiana. The 
hazard mitigation grant program was designed to supplement road 
home grants by the State by funding $1.2 billion in mitigation 
efforts. However, FEMA claims the current structure of the road 
home program is not compliant with the law governing the hazard 
mitigation program, in other words, the Stafford Act. If indeed 
it is true that the Stafford Act impedes the allocation of 
these grants to the road home program and its applicants, then 
certainly we could would call for adjustments to section 
5170(c) of this code to make this program more flexible so they 
can help homeowners rebuild.
    Additionally I would advocate that the Act should be 
amended to allow for global benefit cost approvals for 
mitigation measures that commonly prove effective. For example, 
when acquiring a block of 20 homes rather than doing a home-by-
home structure-by-structure analysis, it should be enough to 
determine the total cost of all the homes and the total 
benefits of all those homes.
    So the first area we would recommend are making these 
housing mitigation grants more flexible. The second area is 
streamlining assistance, and we have heard from Mr. Boustany 
and others, according to FEMA's numbers, $4.76 billion was 
available to Louisiana for public infrastructure as of May 5. 
Of this, $2.34 billion was paid out to local applicants but 
FEMA claims $2.42 billion remains held up in the State and 
there are many causes for this bottleneck.
    For example, project worksheets defining what FEMA will pay 
are clear to local government entities are routinely 
underestimating those actual costs. While local officials work 
with FEMA staff to create new versions of these worksheets, the 
frequent rotation of FEMA staff has caused severe backlogs and 
continued substantiation of the same claims. This slows down an 
already tedious process. You have heard examples before already 
for example in the school systems. There are also examples in 
Madison bill with the library system where FEMA first estimated 
it would take $500,000 to $750,000 to repair all the storm 
damages and bring the facility to code. Now after months of 
arbitration, FEMA's now verbally offering $187,000, but only to 
restore the building to the condition it was before the storm, 
which was barely functional.
    If the library officials want to use the money for another 
purpose that offer would be rescinded. When you have the level 
of destruction over $6.3 billion, it is a stretch to assume 
that local stakeholders would be able to make substantial 
investments and be reimbursed later. A second change has to be 
allowing our public assistance applicants to replace destroyed 
equipment, such as vehicles, with new products instead of 
reversing those decisions. There has to be a mechanism for FEMA 
to up front these dollars so that local governments can proceed 
with reconstruction. There are many examples in my written 
testimony from St. Tammany Iberia and Vermilion and other 
parishes.
    Three specific examples when it comes to the public 
assistance, one human capital retention, the Post-Katrina 
Emergency Management Reform Act of 2006 directed FEMA to 
develop a plan to improve the workforce, especially to fill in 
the gaps in the current workforce. A program is to be 
established or a report submitted to Congress by April 2 of 
this year, that is still not yet to be done. The rapid turnover 
continues to cause problems.
    Secondly, we need a streamlined evaluation process, for 
example, allowing local entities to hire and use licensed 
engineers or trained code enforcement officers in lieu of going 
through a lengthy and duplicative FEMA review requirement. 
Third, an alternative buildings construction requirement that 
would allow alternative projects to be funded at the full 90 
percent Federal share instead of the current 67 percent Federal 
share to encourage comprehensive community redevelopment to 
encourage alternative building instead of as many others, as 
already pointed out, simply rebuilding what was already there 
before.
    On this point, I also want to emphasize we are strongly in 
favor of legislation that would waive that 10 percent match for 
the State so the State can get back on its feet for the State 
and local entities.
    The third and final point and I will wrap up my I know my 
time has run out. The third and final point I think we need to 
recognize, the magnitude of the Katrina and Rita events as 
compared with previous disasters. I do want to applaud teams 
from HUD recently to provide longer term housing solutions 
reversing its decisions on students who were living in 
university or college-owned housing. But despite these steps, 
we have a much greater step that needs to be taken. I think 
fundamentally, the Stafford Act must distinguish between 
catastrophic and major disasters. As witnessed after Hurricanes 
Katrina and Rita, it is evident when a disaster simultaneously 
impacts thousands of square miles and virtually shuts down an 
entire--several metropolitan areas, a separate designation is 
required to adequately respond to an event of such magnitude. A 
catastrophic disaster designation should be established based 
on total populations displaced residential property damage, the 
scope of the failure of the critical infrastructure on vital 
services that allows us to adjust regulations for assistance, 
the paperwork the bureaucracy. There is precedent for such a 
designation.
    The Homeland Security Presidential Director establishes a 
national response plan that is invoked for declared incidents 
of national significance. As we rebuild the gulf coast, I 
think, that it is the most important out of my three points 
that we learned this lesson, we have a precedence for it, that 
there is a significant difference between a catastrophic 
disaster and our response should be adjusted accordingly. Thank 
you, Madam Chairwoman.
    Ms. Norton. Thank you, Mr. Jindal.
    Ms. Norton. Mr. Melancon, you are the last to testify.

  STATEMENT OF THE HON. CHARLIE MELANCON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Melancon. Thank you, Madam Chairman. I appreciate the 
opportunity to come here. I have submitted my comments for 
record. I was here earlier when Mr. Taylor and Mr. Pickering 
were giving their comments, I listened to part of Mr. 
Jefferson's and all of that of Mr. Jindal. I would suspect that 
I would probably be repetitive and to save the committee some 
time, let me just say that I concur with their remarks thus 
far. There are some items--I would be happy to stay for 
questions but in order to kind of expedite the hearing, defer 
to my other two colleagues from Louisiana. Thank you, ma'am.
    Ms. Norton. Thank you very much, Mr. Melancon. Let me ask 
all of you a question. Any ideas you have, this notion about 
fronting money up front when you have a truly catastrophic--we 
would have to define what this is. But in a--Katrina defines it 
for you. There may be something less than that, it would also 
be catastrophic. I will say to you, as I said to the last 
panel, we had all of your public officials in here ahead of 
time warning about the spending funds and how they get audited 
and all the rest of it. This notion of fronting funds is 
something that it would appear to be commonsense, except it is 
Federal funds and it is taxpayers' funds. What I think the 
committee would need, because it makes obvious sense, and the 
committee could say there could be a reserve or money that 
would be available in a catastrophic disaster and define what 
that was--well, it doesn't get you very far because if you say 
okay, here are your funds, that doesn't mean that some auditor 
isn't going to account for taxpayers' funds.
    So what we need, given that commonsense idea, is how to do 
it, and account for it, how to, you know, obviously, you 
voucher for funds for a reason and it didn't work in a 
catastrophic event. Well, I tell you why it won't work just to 
go to the other end of the spectrum. This is where you need 
truly analytical new thinking in keeping with the new kind of 
catastrophe we have experienced. I don't necessarily ask you 
off the top of your head, but that would be very useful to know 
how you could do that quickly and have the taxpayers trust you 
that you weren't just throwing money out there because you 
wanted to kind of protect yourself from kind of criticism that 
for example FEMA got last time.
    I would like to ask you all because of the role that New 
Orleans played and the revenue of the State budget, what 
condition the State budget of Louisiana is in now that this 
major part of the city--sorry, the State, oil, New Orleans and 
all of that means in revenue, what does--what is the State 
itself, what is the State itself able to do, given the fact 
that perhaps a part of the State that was most responsible for 
revenue is out of commission and has lost its tax base?
    Mr. Melancon. If I could, the State fisc at this juncture 
is in very good stead. However, it is a result of an economy 
where which if you look back at all past hurricanes and 
disaster is a booming economy, because of the rebuild and the 
construction, plus you have what is called the FEMA effect, 
everything that is being built down there now----
    Ms. Norton. That is great to hear. Has it spilled over to 
the rest of the State in your areas?
    Mr. Melancon. Well, it is not the entire State. But the 
State fisc is in good stead at this point in point in time. Is 
that an event that will continue ad infinitum? No. It will 
slowly start fading off, and unless we get some of the changes 
that have been requested and some of the legislation that we 
have passed through the House with the----
    Ms. Norton. So taxes are being paid to the State, aren't 
taxes being paid to local jurisdictions as well?
    Mr. Jefferson. I might amend that. For New Orleans--New 
Orleans didn't benefit from either the boom in buying 
materials, sheetrock and appliances and all that stuff, because 
there weren't any places to shop in New Orleans to speak of, so 
the sales tax benefits went to Baton Rouge some went to 
Jefferson Parish and other places, but none went to St. Bernard 
because there weren't any places open for business.
    So our cities have suffering dramatically and it is a loss 
in taxes. I asked a man before I came up here, how much is back 
and he said about 60 percent of the tax base is back online but 
that is just recently. It has gone up gradually. There was one 
time when it was less than 20 percent and then it just has 
moved gradually up. But the city has incredibly indebtedness 
now somewhere near $300 million trying to overcome this lack of 
taxes, and it is still not where it needs to be and won't be 
for a good long time so it is unable to pay for things and have 
it reimbursed.
    It is a mighty struggle to keep above water and to pay for 
all the things that one has to pay for, including fire and 
police and all the other things that are critical services.
    Mr. Boustany. I would just simply add that my district in 
southwest Louisiana which has a number of rural communities, 
which were quite literally wiped out those communities are 
really struggling. I think Mr. Melancon, in southeast 
Louisiana, has the same sort of situation. Small agricultural-
based communities fishing communities which had significant 
damage their tax base has been eroded significantly by this 
event and these communities are really having a hard time. 
Waiving the State match on some of these funds that we have 
talked about earlier would be of major importance to us, 
particularly in the rural communities.
    Ms. Norton. Well, you know it is interesting the contrast 
between the State getting revenue because of the rebuilding and 
local communities New Orleans doesn't feel it, rural 
communities don't feel it. I don't understand how this works. 
At some point, there ought to be some--forgive me--trickle-down 
effect here.
    Mr. Baker. If I may add, Madam Chair, I am one of the 
beneficiary communities, Baton Rouge just north of the storm 
impact, and it is our merchants who are getting the settlements 
out of the insurance proceeds, people came into clothing stores 
and would buy entire wardrobes, housewares, building materials, 
so there has been an exchange of commerce from Mr. Jefferson's 
Orleans, Mr. Boustany's coastal Rita area, to those residual 
municipalities that did not get adversely impacted by the 
storm.
    The net effect is a spike in State sales tax because of 
these transactions which includes an awful lot of automobiles, 
but as Mr. Melancon said we believe this to be a short term 
spike, it will flatten off and Orleans to the rest of the 
State, Orleans metropolitan area represents about 30 to 35 
percent of the State's overall economic income. So this short-
term cash in the pocket is going to lead us--in my opinion, 
into some very difficult financial times in a few years to 
come.
    Ms. Norton. Although typically the old pump the prime 
notion should mean that as building takes place throughout the 
State----
    Mr. Baker. The problem is, in this case, this storm took 
the pump, there is nothing in the ground, there is no slabs, 
there is no economic activity because we have complete 
dislocation of social order, schools, firehouses, everything is 
gone. And so, if you move back in as an individual today, you 
may be taking your own money and putting it at risk because you 
don't know if your neighbors are going to come back and 
rebuild. Therefore, your real estate value is in jeopardy. And 
that is what is stymieing the wholesale recovery, which would 
normally occur where communities are damaged but not destroyed. 
These folks were wiped out.
    Mr. Boustany. The other thing I would add, too, is that 
when you have your law enforcement functions that have really 
been devastated and damaged and understaffed and a health care 
system, which is really stressed, that also is a significant 
inhibition on recovery.
    Mr. Jindal. And Madam Chairwoman, I would add one final 
point. I agree with everything that my colleagues have said. In 
addition to these being temporary revenues, let's us also not 
forget there are some very significant obligations that haven't 
been met. For example for the State to make whole all the 
people who have been promised in the road home program could 
take billions of dollars more than allocated. In addition, 
there has not been a final decision made to how to respond to 
the destruction caused within the charity hospital system. That 
could obligate the State to be spending hundreds of millions, 
if not more, dollars.
    Third, there is a significant coastal erosion problem in 
Mr. Melancon's, and it affects all of our districts. The State 
has temporary surplus of revenues, but there are some very, 
very serious obligations, and we shouldn't forget that those 
obligations are much larger than even those temporary 
surpluses.
    Mr. Jefferson. May I make one other small point, unlike 
almost every storm we can talk about, particularly down in my 
area and Charlie's area, we are in so much trouble there and we 
were devastated because the levies broke. It was Federally 
designed, constructed and maintained levies that gave way that 
drowned the City of New Orleans, and that drowned St. Bernard 
Parish, that not having been taking place, we wouldn't be 
talking about this level of devastation. That is not true along 
the western coast of the State, but it certainly is true where 
we are. And so, I think there is a larger responsibility here 
on the part of the Federal Government to make our region whole.
    Ms. Norton. Well, I certainly agree. I begin with who pumps 
the prime--or pumps the pump, whatever, first and if you look 
at Europe, didn't need us after a while, or if you look even at 
for that matter the Great Depression, first the government 
begins to do the building the public building that is 
necessary, then everything else takes off. You can't expect the 
private sector to start rebuilding a State. You start with the 
Federal Government or with the public sector. Then, of course, 
you begin to peel off into the private sector the private 
sector then get some of that, and you begin to rebuild. And 
after a while, you look at Europe, they didn't need us for very 
long after we were in there on the ground initially. Before I 
go to more questions, I am going to move to the ranking member.
    Mr. Graves. I don't have anything.
    Ms. Norton. We have been joined by a member of the full 
committee, Ms. Brown. Ms. Brown do you have a statement before 
I continue with questions?

   STATEMENT OF THE HON. CORRINE BROWN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Ms. Corrine Brown of Florida. Yes, I do, Madam Chairman. 
And I want to thank you for inviting me to come today and to 
testify about my experiences with dealing with the unresolved 
problems regarding Hurricane Katrina. And I say all the time 
that I view myself as the people in the New Orleans, 
Mississippi, Louisiana area member at large. I am very 
interested in helping them to resolve their problems. I have 
been to New Orleans seven times, and I am going again in June. 
Sadly, every time I have been there it looks like a war zone. 
It is unbelievable that 20 months have passed and the most 
basic human needs have not yet been met. 20 months later and 
residents are not able to move back.
    There is still debris everywhere and people are without 
electricity. Twenty months later, and there are impassible 
roads and no clean water, not enough teachers. Twenty months 
later, no street sign, toxic fumes in the air and not enough 
police officers. Twenty months later is unacceptable. You know, 
I am proud to be a part of the new Democratic majority and part 
of the Transportation and Infrastructure Committee that 
recognized that we need to fix these problems fast. It is my 
hope that my testimony and other statements from colleagues and 
some other problems that can easily be fixed and give the 
residents of Louisiana and Mississippi finally a chance to 
rebuild.
    My testimony today will highlight a few of the problems 
that I heard from residents and their families, and I think 
that can easily be fixed. The major problem is getting the 
funding to the residents. Frankly, there seems to be two 
problems, one FEMA and one the State. And what seems to be the 
problem is they don't understand that we are loading the people 
down with complicated paperwork.
    Let me give you an example. Louisiana applied for a FEMA 
hazard mitigation grant program that would fund the road 
program. FEMA denies their claim and calls a shortage of funds 
for the road home program. Now residents have to wait even 
longer to rebuild. Another FEMA problem regarding the damage 
assessment. I heard FEMA falsely assured school districts--and 
I heard this from superintendents when I was there. They 
reported in New Orleans and Mississippi, they had okayed the 
projects and the school system went out, purchased sites, 
rebuilt. And now they have not gotten the reimbursement and 
FEMA has denied them the additional funding. That is a problem 
and the problem that superintendents have told me exist. In 
addition, I went to the airport and the administration went 
with big checks, they blew up the checks. Here's the money, $25 
million or whatever, but they whispered in the ear of the 
airport directors, now you can't put it in the bank. And to 
this day, they have not gotten the funds. And so the horror 
story of the government not functioning, a government that is 
inept incompetent, that don't care.
    And so I have a list of concerns that I want to submit in 
writing. Another one is that stands out is the SBA loan 
program. Now, if you apply for the loan program and you have 
gotten assistance from another area, they take the entire lump 
sum out, wherein if you had a loan, you could pay it back over 
the period of time with small interests. That is not the case. 
I would like to thank Chairman Norton for allowing me to 
testify today and her leadership on this issue.
    I am looking forward to working with members from 
Louisiana, Mississippi, and other members from the 
Transportation and Infrastructure Committee to finally help the 
residents from the Hurricane Katrina recovery, and let me just 
close that I have adopted a family there. I brought them to 
Orlando for a week. But the key there is that I took their 
plight to the White House, letters, their casework and we were 
able to get the funding after 18 months laid out, although they 
told me they haven't received a penny; they have gotten in 
writing they would receive the money.
    One of the ladies died last Saturday and they had the 
funeral, but at least she knew that her funds was on the way, 
and the VA--I am pleased to say that we are on the right path 
as far as making sure that the funding to replace that system 
is in place. I would ask for hearings from the VA to make sure 
that we can cut down the amount of time it takes to deliver a 
hospital to the veterans in that area in particular. In the 
area of transportation and infrastructure, I am asking my 
governor to convene a conference with the governors in those 
areas so that we can have a train, economic development train, 
but also one that when we have another hurricane, and we will 
have another one, we will be able to move people out of harm's 
way. Thank you, Madam Chairman.
    Ms. Norton. Well, thank you very much, Ms. Brown, for your 
sustained interest in this part--this part of the country. I 
know that your experience in Florida has made you particularly 
conscious of the needs when an even more catastrophic event 
occurs in another State. I only have a couple questions and a 
question that really plays off of one that ranking member 
asked. But first, I would like to ask you a question, a couple 
questions that appear to have come from the City of New 
Orleans, that involve--would involve were such matters to be 
adopted a rather unusual intervention into State affairs. 
First, the city implies if a truly catastrophic event occurs, 
and we again have to define what that means, the State should 
be compelled to accept immediate needs funding. This must mean 
the State did not immediately accept such funding. I am not 
sure why, but I would like your thoughts on Federal Government 
to that extent when the State has not instantly or immediately 
accepted immediate needs funding.
    Mr. Baker. Madam Chair, I don't know that I am the right 
person to respond to the question, but I can go back to those 
opening hours of the storm's approach at the operations and 
control center in Baton Rouge where the State police and later 
the governor's operations were finally located. There was much 
disarray in those early hours, and the delay in my opinion--I 
am certainly not speaking for any other member, in bringing in 
the National Guard to help restoration of order was a 
significant impairment to our recovery capability. When 
individuals with goods and services arrived on the scene, there 
was civil disobedience of significance. And the first 
responders simply refused to go in until social order was 
restored. That cost precious days and presented you with those 
pictures of people standing on elevated interstates without 
even water to drink. That is unacceptable. I have, and remain 
an advocate of early intervention in a catastrophic environment 
where social order has been completely lost and we had no law 
enforcement on the ground to speak of, for the National Guard 
to come in and assume operational control immediately on 
stabilizing the community. All matters should be then delegated 
to the local authorities to determine the next step. This would 
be temporary but it would be immediate. The funding issue is 
something frankly that would not--expedited funding would not 
simply have mattered in the early hours of the response, 
because there was no place to deploy the money anyway.
    The first place that money was deployed was at the centers 
where people were temporarily housed and we, for a short while, 
had the $2,000 program that was given to people to help them 
get on the road and to other shelters. That did not work very 
well either. So there is great room for improvement in response 
mechanisms in those first 48 hours of a storm of this 
magnitude.
    Mr. Boustany. Madam Chair, I would agree with Mr. Baker, 
and relate my experience with this. In the immediate hours 
after Katrina, I was at the communications center for the 
largest privately owned ambulance emergency medical services 
company in the country, but it does provide the bulk of 
emergency services throughout our State of Louisiana. They had 
the only functional communications system in the State and we 
were getting real-time information from paramedics who were 
trying to get in and who were fearing for their lives in these 
early hours.
    So clearly, when you have a disaster of this magnitude, the 
logistical capability that could be brought to bear by our 
military and certainly National Guard is essential. And I had 
calls, for instance, from someone who had an armored car 
service trying to get money to ATMs to desperately help people 
in need who couldn't get in because of crime concerns. So law 
enforcement and getting order is essential in those early 
hours. It goes hand in hand with the emergency effort. And 
there was considerable chaos early on and there was very poor 
communication. In fact, the center where I was sitting and 
working with others was the only place where we had viable 
communication in the entire area.
    Ms. Norton. Mr. Jefferson, this idea appears to have come 
from the City of New Orleans. What do you have to say about it?
    Mr. Jefferson. I think the City of New Orleans is right in 
this regard. As I have said earlier, I think as a structural 
matter, the notion that the State has to be the only entity to 
be dealt with here and the State has to agree to a coordinated 
response is, to me, unrealistic. I think that if you look at 
what happened on 9/11, the Stafford Act still applied, and it 
said the money goes to the State. But the governor made a 
decision that was different than what was made at home. He 
said, we got the moneys, sent it to the mayor of the city and 
said get things fixed.
    If it works that way, it is a beautiful thing, but if it 
doesn't, if you get bottlenecking in one place or another, it 
doesn't work. So I would think that as a structural matter, if 
the devastation takes place and parish X we ought to have a 
more direct way to get things to parish X authorities, through 
the Stafford Act, rather than have it all having to go through 
the State, which requires coordination.
    Second of all, as has been pointed out, the communication 
system must be compatible. A lot of this discussion about the 
crime and lawlessness was as we found out later, it was rumored 
but nonetheless, it kept people out. I suspect some of it was 
real, but when they got through all the investigations, all the 
things about murders and all the rest of it, it turned out not 
to be so. It was a complete deterrent early on and kept people 
from not taking the risk of going down. Second thing is 
prepositioning of pretty much everything.
    I think on the public side prepositioning of the fire and 
police folks in a position where they can kind of--not be 
victims but come back and be of service is very, very important 
and have the local folks have a chance to do things.
    Second of all, contract prepositioning, we had these four 
big contracts, or five, whatever it was, came in there with no-
bid contracts, we had no small business folks, no local people 
ready to do very much of anything. I think this whole thing has 
to anticipate that we can have the prepositioning issues done 
with local contractors and with our local first responders, 
have communication so that everybody can kind of have good 
information and be able to talk to each other through and a 
more direct way to get aid directly to the affected areas 
without having it to go through all the----
    Ms. Norton. Very sensitive issue. But again catastrophic 
funding. I will tell you one thing, by of course going through 
the usual protocol administration we should say the Federal 
Government took the rap. So if, in fact, lives are lost or 
there is civil disorder because you are going through the 
statutory protocol State, local, Federal, whenever that comes 
in, in the long run, the world will see the Federal Government 
as having not come to the aid of its own citizens. Another 
controversial perhaps notion--that a suggestion that has come 
forward to us is that FEMA should have the responsibility for 
managing and setting up, establishing some kind of national 
evacuation plan.
    I think there might be some concern about that in terms of 
homeland security, although one should see these as exactly the 
same kind of disaster, if an evacuation was necessary. What do 
you--what are your views on whether there should be such a 
thing as a national evacuation plan?
    Mr. Boustany. I don't think it should go from the top down. 
I believe there should be significant input from the governors 
and from the States and from the local communities working in 
tandem with FEMA. I know that the particularities of the 
situation on the ground and their respective locations, and I 
think evacuation plans should be worked out at the State level, 
but with some Federal input as to, you know, how to expedite 
these things and where pitfalls may come. I think if everybody 
is working together, if you prepare ahead, then there is less 
confusion when you have a problem.
    But I do believe that one of the problems we have had is we 
probably perhaps thought FEMA could do too much, and I think 
there was a lack of clarity as to what exactly FEMA's role is 
in something like this. Because clearly FEMA didn't have all 
the resources necessary. So I think there needs to be clear 
communication beforehand about proper roles and who is going to 
do what from you know the individual counties or parishes with 
their emergency personnel to the State and communicating with 
FEMA.
    Mr. Baker. Madam Chair, if I may, I would suggest--I return 
to my catastrophic risk assessment idea, coordinating all known 
available data in real-time, what is difficult for local 
officials is to say let's evacuate. You have to shut down 
businesses, inconvenience people, take kids out of school, run 
by the grocery, get the car filled up, and then don't know 
where you are going. A model that would enable all the 
available commercial and governmental data just to be visible 
on a screen where you as a person get home, you see where the 
storm is, the likely storm track. That is the weather station.
    Then you see that the hotel bookings in central Louisiana 
are beginning to fill up. That is a warning. You see that 
there's gas shortages from lake Charles going west from the 
storm track. You see that the storm is intensifying. You see 
that there is--you know there is health care problems, perhaps 
elderly being transferred from nursing homes into other 
hospital care facilities. All of those are dynamic predictors 
that convince local constituents in a way local officials 
cannot, and if there is to be another Katrina-like event in the 
New Orleans area and we don't start getting people out 3 days 
in advance, we can't get them out.
    If there is not enough contraflow to get all the vehicles 
out of that region of the State without significant advance 
warning, and the way we do it is to begin to tell people, local 
resources around the corner are being depleted, and if you 
don't leave now, you may not even be able to buy gas. People 
were stuck on the interstate as much as eight and 10 hours to 
get from New Orleans just to my city of Baton Rouge, and from 
there I had people staying at my home. I had people staying in 
my campaign headquarters.
    Everywhere you could find a place to put people you would 
put people because all the commercial assets filled up too 
quickly, and they didn't have the resources to get away in 
time. So I really think that--and that is not just for our 
committee. I think any community subject to coastal risk ought 
to have some sort of system that has all those inputs. And 
there is a lot of people that can tell us how to construct 
these things to give people the judgment and skills they need.
    Mr. Baker. And that goes, as opposed to a national plan 
that is static in form, that has a rule book. I think the 
dynamics of these things are so unpredictable we need something 
that is real-time.
    Mr. Boustany. I would agree with that and, first, it is one 
of the problems we had was finding hospital beds, and we ended 
up using that communication center I mentioned on an ad hoc 
basis, getting information about where people were coming from 
and making phone calls to get real-time information about where 
to transfer hospital patients from one damaged or flooded 
hospital to where hospital beds were available, and this was 
going not only statewide but actually outside of the State of 
Louisiana. And it was sort of an ad hoc "from the ground up" 
type of effort, and I think Federal Emergency Management Agency 
can provide oversight for when you have, for instance, a 
disaster beyond just a county, where you are involving multiple 
counties, then FEMA can provide sort of the coordination. But 
you have to have the communication, real-time communication, to 
really make this work.
    Mr. Jefferson. Let me say one thing. I think at the end of 
the day in New Orleans, if you are going to test if the 
evacuation worked based on who was left in town, I will give 
you an idea of what I think happened. First responders were 
left there because they had to be. They were asked to stay, 
they were trying to be helpful, whether they were pumping 
water--fire, police. Some of those folks were left and trapped 
in town. The folks who were infirm, who were in nursing 
facilities and who were in senior citizen facilities and all 
the rest of it, people who were dependent on other people to 
move them and who could not make a decision on their own were 
also left. Hospitals--folks in hospitals were left and 
abandoned. Our tourists were stuck there who were in hotels and 
all the rest. And, finally, poor people. Really poor folks were 
left there because they didn't have any way to get out of town. 
They had no cars. They had no money. They had no whatever. So 
in those five categories that is why we had folks left in the 
city.
    Now, part of the responsibility lays on the part of the 
Federal Government for not, for example, helping the city plan. 
Part of it was on the city. All of them didn't do it right. 
None of them participated in all these issues and none of them 
did it correctly.
    We had an exercise here called Hurricane Pam which was a 
FEMA-orchestrated worst-case scenario storm in New Orleans. And 
they anticipated many of these things, but didn't do anything 
about it. And so one of the big deals is to actually--if you 
are going to do a Hurricane Pam kind of an event as a 
simulation, then do all the things that you know can work in 
that sort of storm.
    I do not believe the Federal Government would be in charge 
of the evacuation plan and all of that. I think they ought to 
be big partners in this. They have many more resources--we have 
many more resources here on this level than the States or local 
governments ever had, so there must be coordination in the use 
of them. But I do think they can provide a lot of technical 
help in planning, because as Richard points out, there are 
facilities all over the country that can be used in the case--
as it were in this case--that folks weren't prepared to 
provide.
    They also are first responders all over the country that 
were made available to help, ere ours actually are 
overwhelmingly becoming, themselves, victims. But there are 
different remedies to be applied to folks who are tourists who 
are there trapped in hotels, people who are too poor to find 
their way out of town, folks in hospitals and therefore 
dependent on others, older people who are infirm, and those who 
are first responders who had to stay and try to rescue. So each 
required a different approach to dealing with it.
    Ms. Norton. I appreciate your input on that. The notion 
about real-time evacuation and how to make sure that is 
coordinated, I take that question. What I think is left out of 
your analysis is that if you are evacuating, you are evacuating 
to someplace else. You are evacuating to somebody else's State. 
You don't have jurisdiction in somebody else's State. Only the 
Federal Government has that kind of jurisdiction. There is one 
thing to say, as I think you probably say, again we are 
learning from Katrina. And Katrina was just about getting 
people to go someplace, anywhere, quick. Okay, we got that.
    A national evacuation plan would have to prepare Texas, 
would have to prepare other States around, to understand they 
may receive people. Might even--might even decide where people 
from one part of the State might go, or cities in--Baton Rouge 
took a huge number of people from New Orleans--might even make 
arrangements ahead of time on a temporary basis.
    We can talk about Katrina all we want to. If there is a 
catastrophic terrorist event where, in addition to knowing 
somehow that the floods would recede, you are left with not 
knowing where the terrorist event came from or what to do, it 
will certainly not be enough to say to the Governor of the 
Stat, Why didn't you evacuate people?
    If it is a nuclear device, evacuating people, for example, 
in the direction of where the nuclear residue is coming from 
would be further catastrophe.
    I am struggling with this. This is for very good reason 
these matters have been State matters. But, you know, this is 
the 21st century now. And this is global terrorism. This is, 
yes, Katrina writ large.
    Mr. Baker. Madam Chair, if I may suggest----
    Ms. Norton. But I need you to think about, particularly in 
light of the confusion that developed around going through the 
protocols, about the timing it takes to go through the 
protocols, and about the terrible effect on other people who 
are still feeling that effect in surrounding States, but have 
simply acted like good Americans and have absorbed the effect.
    Now, it is one thing to absorb the effect from people who 
come in relatively healthy. It is another thing to absorb the 
effect of people coming in contaminated with something that has 
gone off in their area. It is the failure to think of the next 
catastrophe that bothers me about Katrina, because I am not 
sure that another Katrina will occur for some time to come. But 
given what has happened in global warming, the unpredictability 
of--we have tornadoes in Florida now, and the rest. I am very 
worried about our overlearning----
    Mr. Baker. Madam Chair----
    Ms. Norton. --certain kinds of mistakes and not moving, not 
moving forward as a result.
    I am hearing him. I am going to finish saying what I am 
saying and then I am going to call on him.
    This is an issue of some concern, takes very deep thinking 
and analysis incorporating what we have learned, trying to 
imagine what is unimaginable, and bearing in mind that just as 
the State took the rap for evacuation, there is still 
controversy about whether or not there was some Federal role to 
be played there. And the next event may present an entirely new 
circumstance. And I hear very little to help me think as a 
Federal official how to deal with that.
    Now, Mr. Baker.
    Mr. Baker. Thank you, very much, Madam Chair.
    I would merely point out that in the early hours of any 
type of catastrophe, principally the hurricane we experienced, 
but almost any catastrophe, there is of necessary consequence a 
local decisionmaking-driven process. And the system I am 
encouraging to be promoted is advisory in nature, not 
mandatory, in that you give people information. Some will use 
it. We know some won't. Some will adamantly refuse to leave.
    Ms. Norton. I understand that and I accept that. That is an 
important contribution. I am talking about some kind of 
framework that--for example, here in the District of Columbia, 
where, by the way, 200,000 Federal employees that come in and 
go out, they don't even live here.
    The first thing we have learned is, hey, evacuate. Well, 
that builds human catastrophe of unspeakable proportions on 
what is likely to be a rather small event that happens in one 
part. But that is what everybody thinks now. They think you 
ought to evacuate.
    I will tell you one thing. There is no way to get out of 
this city and there is no place to go. And I don't think 
Maryland or Virginia has the answer to that.
    Mr. Baker. My point merely was that our citizens went to 
concentrated points of relief and thousands were in temporary 
shelters for about a 3-month period. Those are the people that 
then later located out of our State to our great neighbors in 
Texas, Mississippi, and Arkansas.
    So it is a staged event. If the----
    Ms. Norton. And I am suggesting, again, it may not be a 
staged event next time. The thing may be get out of Dodge, get 
as far from your State as possible. I am not asking for off-
the-cuff answers. I am asking for us to imagine whether people 
are going to be in the State, anywhere near the State, given 
certain kinds of catastrophic events. I understand how it 
happened there, how it peeled off. People just wanted to get 
out of the flood area then.
    But I am trying to force us to think about an event of the 
kind Katrina was, an event we couldn't possibly imagine.
    Mr. Jefferson.
    Mr. Jefferson. I think that you have challenged, at least 
me, beyond my capacity to respond fully to you. But I do want 
to say this much. There are a lot of places in Louisiana that 
could have accommodated our people if we had thought about this 
thing earlier. In other words, we don't have to really 
necessarily involve other States. We are dealing with the 
southern Louisiana phenomenon. It could be Shreveport, Monroe, 
Alexandria. We could have places up there that people could go.
    Ms. Norton. Do you think they spread out rather evenly and 
well----
    Mr. Jefferson. What happened was people make their first 
decisions themselves as to where they would go. If you know 
somebody in Alexandria, you went there----
    Ms. Norton. Right, if you have relatives there.
    Mr. Jefferson. Right. Then go to Atlanta or Texas, whether 
there was a hotel room, whether they thought they were coming 
back home in 3 days. Nobody thought about this thing as a 2-
year event--is what it has turned out to be--and beyond that 
now in the next few weeks. So it is certainly something we 
hadn't thought through.
    The challenge you are presenting to us is let's stop and 
think this through, because if it happened once it can happen 
again, maybe not in the form of a hurricane, maybe some other 
form.
    I am not prepared to provide an answer, but I can tell you 
there are ways we can look at this that can involve some 
Federal assistance helping us to make these plans and some 
Federal resource allocations that can help us do things, 
perhaps in our own State, that can end up with a different 
result from what we faced here.
    Mr. Boustany. Madam Chair, I would just add something. I 
believe you have to look at the scale of these different events 
from perhaps a small localized event all the way to a major 
catastrophic event involving multiple States, multiple 
communities. And I think a way to approach this is to have 
mayors talking to the regional mayors to have cooperative 
agreements, have the Governors of the respective States having 
an overall umbrella plan for the State, and then perhaps a 
Governor of a State talking to contiguous States with 
cooperative agreements.
    We did this in southwest Louisiana with our mayors, to 
allocate resources in the immediate chaos after Hurricane Rita, 
and it worked very well. In fact, we bypassed the chaos in 
Baton Rouge where everything was bottle-necked. Every request 
had to go through Baton Rouge. It took hours, and sometimes 
days, to get things. We found alternative ways to get 
supplies--gasoline, diesel and so forth, medical supplies--by 
having this sort of cooperative arrangement.
    I think FEMA with its regional offices should be actively 
engaged with the States and the local communities before these 
events so that they can kind of model out what happened after a 
particular event. If we do that, we will have a proper system 
in place and that is----
    Ms. Norton. That is the kind of thinking I am talking 
about. Yes go ahead.
    Mr. Boustany. I think the final point I would make is that 
there has to be a trigger for when a Federal response occurs. 
We saw an interminable delay after Hurricane Katrina in the New 
Orleans area before we saw the full mobilization of a Federal 
response. And when that Federal response began, it was a thing 
of beauty. It worked very well in the immediate recovery--or 
immediate response stage, I should say.
    What is that trigger point? Particularly if a Governor is 
sort of--if a Governor is incapacitated or paralyzed by the 
situation, indecisive, at what point does the Federal 
Government move in? This is a real problem after Katrina and I 
submit to you it is not a problem we have solved yet, and it is 
something we need to address here at the Federal level.
    Ms. Norton. Mr. Boustany, I think there is Federal 
authority to require the States to gather together and work out 
the kind of regional understanding that you--here you wouldn't 
have the Federal Government for doing it. What does the Federal 
Government know to do for, for example, in this region? They 
would have to say look, Maryland, D.C, and Virginia, you figure 
out what would happen if there was an evacuation. In fact, the 
most important thing we would have to figure out is how to make 
people stay in place, because we are less likely to have a 
flood or a natural disaster than we are to have a terrorist 
event.
    What Mr. Jefferson said, I think, is driven home by a 2-
year event. Mr. Baker said, first, people came to points nearby 
and then they fanned out into other places; because as Mr. 
Jefferson said, no one thought it would be a 2-year event.
    I give you this, gentlemen. Every time thus far that we 
have passed a piece of legislation, the 10 percent--I think--
matching, each time those States have come in and said, "me 
too." and you know what? Each time we have done so--when Texas 
comes in, when Florida comes in, and says as a result of 
Katrina--Arkansas in particular--each time we felt we had to do 
this. But notice how we have had to do it. We have had to do it 
on an ad hoc basis because the Stafford Act does not take into 
account the effect on the States, surrounding States, and, for 
that matter, other localities. That is dangerous. We do have 
freedom of movement across this country. But, particularly if 
we have certain kinds of catastrophic events, if in fact the 
States believe that a whole hoard of people were going to come 
in from another State, and give you a 50 percent increase in 
people attending your schools and in people who want your State 
legislature to come up with the State share of Medicaid, and 
with people who wanted food stamps, with your legislature to do 
it, I would tell you I would hate to see what would happen to 
the normal generosity of the American people.
    So I think we have to look at--and I appreciate the notion 
of the States getting together. The Federal Government could 
say, "whatever you decide," but could require that the States 
in the regional configurations where they usually operate in 
this area--I know exactly what those configurations are. They 
are Montgomery County, Fairfax, the District of Columbia. I 
mean, I know exactly where they are. So we wouldn't be 
inventing anything new.
    I suspect that, depending on where you are in Louisiana, 
you work more closely with Arkansas, with Texas, or with 
whoever it is.
    Just let me finally say to Mr. Graves, do you have any 
further questions?
    We held this hearing because we did not believe that the 
committee was in a position to know what should be done in the 
nature of what we are anticipating doing. We intend to put 
together a set of legislative fixes. These fixes would pertain 
to your areas alone. They would say to FEMA, this is--perhaps 
some of them will have time limitations. They will all relate 
to Katrina, Rita, and Wilma.
    Any further information you have would be what is most 
useful to us. None of us have experienced what you have 
experienced. Your constituents do not come to us, they come to 
you. So I invite you, in addition to the very helpful testimony 
you presented today, to keep it coming to us as we prepare the 
legislative fixes that are now--that your testimony has is 
already suggested.
    Ms. Corrine Brown of Florida. Madam Chairman, I have a 
question. But let me just say, like quickly, that the FEMA that 
you all experienced is not the FEMA that we dealt with in 
Florida and I really--you know, one of the things, we did a lot 
of reorganization after 9/11, and I don't think all of it was 
good. Because how we changed the role and scope of FEMA, first 
of all, the Wall Street Journal printed an article--or New York 
Times--with 20 top physicians. Not one of the 20 top had any 
disaster experience.
    Now, I don't know how far we should go as legislators to 
say what it is as far as job description. I don't feel that we 
have to do that. But the point is you can't appoint your 
friends in life-and-death situations.
    As we move forward, we need to figure out the role of Red 
Cross. They go into the community--as you think of the bigger 
picture--they go into the community and they have contracts; 
but what process do they use to include the local businesses in 
even delivery of food, or contracts, working with them?
    First responders came into the area. They came from--I know 
they came from Jacksonville. We sent 16 tractor-trailers, but 
the first responders in many areas weren't permitted, Madam 
Chairman, to go into the community, because FEMA didn't certify 
them or something. We talking about physicians. We talking 
about doctors that was practicing in emergency rooms. We 
talking about firefighters that was there playing ball, because 
they was not permitted to come into the area. Not that they 
didn't want to come, they was not permitted to come.
    So we have--just last Sunday I met a young lady in a 
nursing home--and we need to have plans not just for the New 
Orleans area, but period. It should be a national program so 
that when people go into nursing homes and they didn't have the 
supplies, the family did not know what people in various 
nursing homes was taken to. So we have got a lot of work and it 
is interesting. This was a national disaster, what you are 
seeing. But what if someone was constantly attacking us? That 
would be a major problem.
    Now, one other thing. The ships in the area--a lot of 
captains call me, there are ships that are available that could 
be brought in, we could have carried a lot of the supplies, but 
we didn't even call them up. And many of the Navy people called 
me and many of the captains saying they have always been sent 
to other countries. How come, when we had a natural disaster in 
our country, we didn't utilize their services?
    So it needs to be more working together with the various 
agencies, and perhaps the role of FEMA is a lot bigger than 
just FEMA.
    Ms. Norton. Thank you very much, Ms. Brown.
    On the matter of the qualifications of the top officials 
with FEMA today, the committee has asked for an audit of the 
qualifications of all of those officials, because we want to 
make sure we don't have another Brownie situation. And there 
have been complaints that although some of these people are 
military, they do not have disaster experience.
    I want to thank the Members again for really very helpful 
testimony and urge you to keep it coming to us as we prepare 
our own bill.
    The hearing is adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T5925.004
    
    [GRAPHIC] [TIFF OMITTED] T5925.005
    
    [GRAPHIC] [TIFF OMITTED] T5925.006
    
    [GRAPHIC] [TIFF OMITTED] T5925.007
    
    [GRAPHIC] [TIFF OMITTED] T5925.008
    
    [GRAPHIC] [TIFF OMITTED] T5925.009
    
    [GRAPHIC] [TIFF OMITTED] T5925.010
    
    [GRAPHIC] [TIFF OMITTED] T5925.011
    
    [GRAPHIC] [TIFF OMITTED] T5925.012
    
    [GRAPHIC] [TIFF OMITTED] T5925.013
    
    [GRAPHIC] [TIFF OMITTED] T5925.014
    
    [GRAPHIC] [TIFF OMITTED] T5925.015
    
    [GRAPHIC] [TIFF OMITTED] T5925.016
    
    [GRAPHIC] [TIFF OMITTED] T5925.017
    
    [GRAPHIC] [TIFF OMITTED] T5925.018
    
    [GRAPHIC] [TIFF OMITTED] T5925.019
    
    [GRAPHIC] [TIFF OMITTED] T5925.020
    
    [GRAPHIC] [TIFF OMITTED] T5925.021
    
    [GRAPHIC] [TIFF OMITTED] T5925.022
    
    [GRAPHIC] [TIFF OMITTED] T5925.023
    
    [GRAPHIC] [TIFF OMITTED] T5925.024
    
    [GRAPHIC] [TIFF OMITTED] T5925.025
    
    [GRAPHIC] [TIFF OMITTED] T5925.026
    
                                    

</pre></body></html>
